■J

APPENDIX 1.

USCA4 Appeal: 20-1457
>) '

Filed: 08/24/2020

Doc: 13-1

Pg: 1 of 1

Total Pages:(1 of 4)

FILED: August 24, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1457
(7:19-cv-00181 -FL)

TONY C. THOMAS, for the Estate of Thalia Dukes
Plaintiff - Appellant
v.

LAWRENCE S. CRAIGE
Defendant - Appellee

JUDGMENT

In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

USCA4 Appeal: 20-1457

Doc: 12

Filed: 08/24/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1457
TONY C. THOMAS, for the Estate of Thalia Dukes,
Plaintiff - Appellant,
v.
LAWRENCE S. CRAIGE,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Wilmington. Louise W. Flanagan, District Judge. (7:19-cv-00181-FL)
Submitted: August 20, 2020

Decided: August 24, 2020

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Tony C. Thomas, Appellant Pro Se. John Lloyd Coble, MARSHALL, WILLIAMS &
GORHAM, LLP, Wilmington, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-1457

Doc: 12

Filed: 08/24/2020

Pg:2of2

> "

PER CURIAM:
Tony C. Thomas appeals the district court’s order dismissing his 42 U.S.C. § 1983
action for failure to state a claim under Fed. R. Civ. P. 12(b)(6). We have reviewed the
record and find no reversible error. Accordingly, we affirm for the reasons stated by the
district court. Thomas v. Craige, No. 7:19-cv-00181-FL (E.D.N.C. Apr. 7, 2020). We
deny as unnecessary Thomas’ motion for a certificate of appealability. We dispense with
oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
AFFIRMED

2

4

.}■ m *

APPENDIX 2.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION

TONY C. THOMAS, for the Estate of
Thalia Dukes

Plaintiff,
v.
LAWRENCE S. CRAIGE
Defendant.

)
)
)
)
)
)
)
)
)

JUDGMENT
No. 7:19-CV-181-FL

Decision by Court.
This action came before the Honorable Louise W. Flanagan, United States District Judge, lor
consideration of defendant’s motion to dismiss.
IT IS ORDERED, ADJUDGED AND DECREED in accordance with the court’s order entered
April 7, 2020, and for the reasons set forth more specifically therein, defendant’s motion to
dismiss is GRANTED. Plaintiffs claims are DISMISSED with prejudice.
His Judgment Filed and Entered on April 7.2020, and Copies To:
Tony C. Thomas (via US Mail) 820 South 10th Street, Wilmington, NC 28401
John L. Coble (via CM/ECF Notice of Electronic Filing)
April 7,2020

PETER A. MOORE, JR., CLERK
/s/ Sandra K. Collins _______
(By) Sandra K. Collins, Deputy Clerk

I certify the foregoing to be a true and collect
copy ofthe original.
Peter A. Moore, Jr.. Oak
United States District Co^-^ £§&
Eastern District of
By;

§ j

Case 7:19-cv-00181-FL Documents Filed04/07/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
SOUTHERN DIVISION
NO. 7:19-CV-181-FL
TONY C. THOMAS for the Estate of
Thalia Dukes
Plaintiff,
v.

LAWRENCE S. CRAIGE,
Defendants.

)
)
)
)
)
)
)
)
)
)

ORDER

This matter is before the court on defendant’s motion to dismiss for lack ofjurisdiction and
for failure to state a claim (DE 28). The motion has been briefed folly, and in this posture the
issues raised are ripe for ruling. For the following reasons, defendant’s motion is granted.
STATEMENT OF THE CASE
Plaintiff commenced this action pro se on September 19, 2019, asserting claims against
defendant, who was appointed guardian of the estate of plaintiff’s mother, Thalia Dukes
( Dukes”), on the basis that defendant violated his Eighth Amendment and Fourteenth Amendment
rights, under 42 U.S.C. § 1983, in obtaining a judicial order of sale of Dukes’s property. Plaintiff
seeks compensatory and punitive damages in excess of $25,000,000.00.
Defendant filed the instant motion to dismiss on Februaiy 5,2020, relying upon filings in
state court proceedings in New Hanover County Superior Court captioned In the Matter of the
Estate of Thalia Dukes. Incompetent, File No. 14 E 579, 15 SP 184 (Sup. Ct.), comprising orders
to sell property, file stamped March 31, 2015, and July 13, 2015; and filings in the same court

Case 7:19-cv-00181-FL Document 40 Filed 04/07/20 Page lot 10

J

*

captioned jnthe Matter of Thalia Dukes, bv her Son, Mr. Tony C. Thomas v. Lawrence S. Craige.
No. 18 CV 003803 (Sup. Ct.) (hereinafter “plaintiff’s state court action”), comprising: 1) civil
rights complaint, 2) motion for summary judgment, 3) counter motion for hearing, 4) counter
motion for summary judgment, 5) notice of hearing, 6) order granting defendant’s motion for
summary judgment, and 7) notice of appeal.
Plaintiff responded in opposition to the instant motion on February 20,2020, relying upon
additional filings in plaintiff’s state court action, comprising: 1) trial scheduling notice, 2) notice
of hearing, 3) May 16, 2019, letter from the office of the clerk of the Court of Appeals of North
Carolina to plaintiff, and 4) August 22,2019, letter from the clerk of the Supreme Court of North
Carolina to plaintiff. Defendant replied on February 25,2020.
The court has stayed discovery scheduling activities pending ruling on the instant motion.
STATEMENT OF THE FACTS
The facts alleged in the complaint may be summarized as follows. Plaintiff is a resident of
Wilmington, North Carolina. Defendant is an attorney who “was legally appointed Guardian of
the Estate of pukes] who was declared incompetent by court order.” (Compl. (DE I) at 3).
Plaintiffalleges that defendant “presented a document to plaintiffrequesting his signature to waive
his rights of inheritance [to] property and to [waive] notice of a hearing regarding same.” (Id. at 1).
Plaintiff allegedly “refused to waive any of his rights, and did not sign the document.” (Id,).
According to the complaint, “[a]fter learning that pukes] was adjudicated incompetent, plaintiff
petitioned the court to order her moved from assistant living to his private residence,” where
plaintiff allegedly “guaranteed he would provide 24 hour nursing care, medications and timely
trips to the doctor’s office for check ups.” fid, at 1-2).

2

Case 7:l9-cv-00l81-FL Document 40 Filed 04/07/20 Page 2 of 10

i

1

On March 16, 2016, plaintiff allegedly certified to defendant that “he had an alternative
living home for his mother and that draining her bank account and liquidating her property was
unnecessary and criminal.” (Id. at 2). On March 18,2016, defendant received the letter and then,
according to the complaint, “his actions escalated.” (Id.). Plaintiff alleges that the next day,
defendant “found a Judge who granted him permission to sell all of [Dukes’s] property.” (Id.).
According to plaintiff, the sale of Dukes’s property “was grossly disproportionate to the
gravity of the alleged debt [Dukes] owed the Department of Social Services,” and the amount in
Dukes’s bank account “was more than sufficient to satisfy any debt she may have owed.” (Id. at
2). Plaintiff alleges that defendant used his appointment as guardian to deprive plaintiff of his

]? 4U?o

A

“right to own and enjoy property left to him by his mother.” (Id. at 3). Plaintiff alleges that when
he notified defendant of “alternative living and nursing care for his mother,” defendant “had
already entered negotiations with private interest” regarding Dukes’s property. (Id at 3-4).

"fit
3

According to the complaint, plaintiff commenced his state court action against defendant
*s

on October 31, 2018 in New Hanover County Superior Court. Defendant presented defenses,

v'"

fifsp

including res judicata and collateral estoppel, in an answer filed December 14, 2018. Plaintiff
//

alleges that the state court determined that plaintiffs state court action should proceed to jury trial,
but defendant obtained a hearing before a different judge in state court. According to the
complaint, a hearing was held in state court with notice of the date, time, and court room number
given only to counsel for defendant. “At the conclusion of the hearing, Plaintiff was notified by
the cleric that the Judge granted Summary Judgment” to defendant. (Id. at 5). Plaintiff hand
delivered a notice of appeal to the clerk of superior court and mailed the notice of appeal to the
North Carolina Court of Appeals. Plaintiff also filed a motion for reconsideration in state superior
court, which motion allegedly was not acted upon. According to the complaint, plaintiff moved

3

Case 7:19-cv-00181-FL Document 40 Filed 04/07/20 Page 3 of 10

to have the North Carolina Supreme Court hear the matter, but that court dismissed the matter
summarily.
COURT’S DISCUSSION
A.

Standard of Review
A motion to dismiss under Rule 12(b)( I) challenges the court’s subject matter jurisdiction.

Such motion may either 1) assert the complaint fails to state facts upon which subject matter
jurisdiction may be based, or 2) attack the existence of subject matter jurisdiction in fact, apart
from the complaint. Adams v. Bain. 697 F.2d 1213,1219 (4th Cir. 1982). Where a defendant raises
a “facial challenge[ ] to standing that do[es] not dispute the jurisdictional facts alleged in the
complaint,” the court accepts “the facts of the complaint as true as [the court] would in context of
a Rule 12(b)(6) challenge.” Kennvv. Wilson. 885 F.3d 280,287 (4th Cir. 2018). When a defendant
challenges the factual predicate of subject matter jurisdiction, a court “is to regard the pleadings’
allegations as mere evidence on the issue, and may consider evidence outside the pleadings without
converting the proceeding to one for summary judgment.” Richmond. Fredericksburg & Potomac
R. Co. v. United States. 945 F.2d 765, 768 (4th Cir. 1991). The nonmoving party in such case
“must set forth specific facts beyond the pleadings to show that a genuine issue of material fact
exists.” Id.
“To survive a motion to dismiss” under Rule 12(b)(6), “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.”’ Ashcroft v.
Igbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Coro, v. Twomblv. 550 U.S. 544, 570 (2007)).
“Factual allegations must be enough to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555. In evaluating whether a claim is stated, “[the] court accepts all wellpled facts as true and construes these facts in the light most favorable to the plaintiff,” but does not

4
Case 7:19-cv-00181-FL Document 40 Filed 04/07/20 Page 4 of 10

consider “legal conclusions, elements of a cause of action,... bare assertions devoid of further
factual enhancement[,] . . . unwarranted inferences, unreasonable conclusions, or arguments.”
Nemet Chevrolet. Ltd, v. Consumeraffairs.com. Inc.. 591 F.3d 250,255 (4th Cir. 2009) (citations
omitted).
B.

Analysis
Defendant moves to dismiss on multiple alternative grounds, including lack of subject

matter jurisdiction, res judicata, Rooker-Feldman doctrine, and failure to state a claim. Upon
consideration of the grounds raised, the court resolves defendant’s motion on the basis of res
judicata and failure to state a claim.1
1.

Res Judicata

The doctrine of res judicata “bars a party from suing on a claim that has already been
litigated to a final judgment by that party or such party’s privies and precludes the assertion by
such parties of any legal theory, cause of action, or defense which could have been asserted in that
action.” Ohio Valiev Envtl Coal, v. Aracoma Coal Co.. 556 F.3d 177,210 (4th Cir. 2009). For res
judicata to prevent a party from raising a claim, three elements must be present: (1) “the prior
judgment was final and on the merits, and rendered by a court of competent jurisdiction in
accordance with the requirements of due process”; (2) “the parties are identical, or in privity, in
the two actions ; (3) the claims in the second matter are based upon the same cause of action

ctaninn

A

-

ab*ence of capacity to sue under state law does not by itself deprive a litigant of Article III

that ‘‘thfadmiST? a fedier^ COU^.ofjurisdiction-^ gge-e-g- Spivey V. Godfrey. 258 N.C. 676,677(1963J (stating
estate or to reco^I^’ ^
Cred.lt0rs or next ofkin>is the proper party to bring an action to collect a debt due the
does not reach the Spec,*ic pe.re^f property”). Because ofthe res judicata bar and failure to state a claim, the court
does not reach the issue of plaintiff’s lack of capacity to sue on behalf of the estate of Dukes.

5

Case7:19-cv-00181-FL Documents Filed04/07/20 Page 5 of 10

.<*' *

involved in the earlier proceeding”—i.e., the claims “arise out of the same transaction or series of
transactions, or the same core of operative facts.” Duckett v. Fuller. 819 F.3d 740, 744 (4th Cir.
2016) (internal quotations omitted).
Res judicata bars available claims “regardless of whether they were asserted or determined
in the prior proceeding.” Brown v. Felsen. 442 U.S. 127, 131 (1979). This includes “ail grounds
for, or defenses to, recovery that were previously available to the parties, regardless of whether
they were asserted” Meekins v. United Transn, Union. 946 F.2d 1054, 1057 (4th Cir. 1991).
Furthermore, “[t]or purposes of [res judicata], it is not necessary to ask if the plaintiff knew of his
present claim at the time of the former judgment, for it is the existence of the present claim, not
party awareness of it, that controls.” In re Varat Enters.. Inc.. 81 F.3d 1310, 1316 (4th Cir. 1996).
The rule that a defendant’s judgment acts as a bar to a second action on the same claim is based
largely on the ground that fairness to the defendant, and sound judicial administration, require that
at some point litigation over the particular controversy come to an end.” Adkins v. Allstate
Insurance Co., 729 F.2d 974, 976 (4th Cir. 1984).

“These considerations may impose such a

requirement even though the substantive issues have not been tried, especially if the plaintiff has
failed to avail himself of opportunities to pursue his remedies in the first proceeding.” Id.
For purposes of res judicata, a summary judgment has always been considered a final
disposition on the merits.” Id. at 976 n.3. “[FJederal courts asked in a § 1983 action to give res
judicata effect (in any of the doctrine’s aspects) to a state court judgment are bound . .. to apply
the law of the rendering state to determine whether and to what extent the state court judgment
should have preclusive effect in the federal action.” Davenport v. North Carolina Dept, of Trans..
3 F.3d 89, 92 (4th Cir. 1993). Under North Carolina law, “[wjhen a fact has been agreed upon or
decided in a court of record, neither of the parties shall be allowed to call it in question, and have

6
Case 7:l9-cv-00181-FL Document 40 Filed 04/07/20 Page 6 of 10

it tried over again at any time thereafter, so long as the judgment or decree stands unreversed.”
State v. Summers. 351 N.C. 620, 623 (2000).
Here, all the elements of res judicata are met. First, in plaintiff’s state court action, a final
judgment on the merits was reached when the New Hanover County Superior Court entered
summary judgment in favor of defendant on the basis of res judicata. (See Compl. (DE 1) at 5;
Answer Ex. 9 (de 15-10)). Second, the claims raised in the instant action are by the same parties,
plaintiff against defendant. (See Compl. (DE 1) at 4; Answer Ex. 3 (DE 15-4)). Third, the instant
suit is based on the same cause of action, and “arise[sj out of the same transaction or series of
transactions” as the claim resolved by the prior judgment. Duckett. 819 F.3d at 744.

Indeed,

plaintiff repeats nearly verbatim the factual allegations from plaintiffs state court action.
(Compare Compl. (DE 1) at 1-2 with Answer Ex. 3 (DE 15-4) at 1-2).
Plaintiffsuggests that res judicata should not apply to bar his claims because the state court
allegedly did not give him proper notice of a hearing at which the New Hanover County decided
defendant’s motion for summary judgment in plaintiffs state court action. (Pi’s Opp. (DE 32) at
2, PI s Mem. (DE 33) at 3). However, plaintiff has filed a copy of the notice of hearing in this case
(DE 33-2), and plaintiff asserts that he in fact received such filing prior to the hearing date. (Pi’s
Opp. (DE 32) at 2; Pi’s Mem. (DE 33) at 3). Plaintiff also exhausted appeals of the judgment of
the superior court to the North Carolina Court of Appeals and the North Carolina Supreme Court.
(Compl. (DE 1) at 3, 5-6). Thus, plaintiff has not demonstrated that the state court proceedings
were devoid of the “minimum procedural requirements” of the due process clause required for
application of res judicata. Kremer v. Chem. Const. Corn.. 456 U.S. 461.481 (1982); see Duckett.
819 F.3d at 744. Here, the elements of res judicata are met by virtue of plaintiffs
own
commencement of his state court action, the “opportunity to be heard” in that action, and the final

7

Case 7.19-CV-00181-FL Document 40 Filed 04/07/20 Page 7 of 10

judgment entered therein upon defendant’s motion. Richards v. Jefferson Cty„ Ala.. 517 U.S. 793,
797, n.4 (1996).
Plaintiffs recourse, if he was dissatisfied with the procedures in state court, was with
further appeals of the state court judgment, not by commencing another action on the same basis
in this court. See, e.g.. 28 U.S.C. § 1257(a). Furthermore, to the extent plaintiff is suggesting
through his complaint and his opposition to defendant’s motion that this court should nullify the
outcome of his state court action, on the basis that it was decided improperly against him, then
such a claim is barred by the Rooker-Feldman doctrine. That doctrine “simply precludes federal
district courts from exercising what would be, in substance, appellate jurisdiction over final statecourt judgments.” Hulsey v. Cisa. 947 F.3d 246,250 (4th Cir. 2020). The doctrine applies where
“the process for appealing a state court judgment to the Supreme Court under 28 U.S.C. § 1257(a)
has been sidetracked by an action filed in district court specifically to review that state court
judgment.” Id. at 251. Thus, to the extent plaintiff contends he is entitled relief from the final
judgment against him, plaintiff s claim is barred by the Rooker-Feldman doctrine.
In sum, the instant action must be dismissed on the basis of res judicata, and in the
alternative on the basis of the Rooker-Feldman doctrine.
2.

Failure to State a Claim

In addition, and in the alternative, plaintiffs action must be dismissed for failure to state a
claim upon which relief can be granted.
Section 1983 provides a cause of action against “[ejvery person who, under color of any
statute, ordinance, regulation, custom, or usage, of any State” causes the “deprivation of any rights,
privileges, or immunities secured by the Constitution and laws.” 42 U.S.C. § 1983. “To state a
claim under § 1983, a plaintiff must allege ... that the alleged deprivation was committed by a

8

Case 7.19-CV-00181-FL Document 40 Filed 04/07/20 Page 8 of 10

person acting under color of state law.” West v. Atkins. 487 U.S. 42, 48 (1988). “[Tjhe party
charged with the deprivation must be a person who may fairly be said to be a state actor.” Id. at
49.
“{MJerely private conduct, no matter how discriminatory or wrongful, fails to qualify as
state action.” Philips v. Pitt Ctv. Mern’l Hosn.. 572 F.3d 176, 181 (4th Cir. 2009). “A private
attorney who is retained to represent a [party] is not acting under color of state law, and therefore
is not amenable to suit under § 1983.”Peas v. Potts. 547 F.2d 800,800 (4th Cir. 1976); see Philips.
572 F.3d at 182 (rejecting argument “that inasmuch as the [hospital] Board of Trustees was
appointed exclusively by state actors, and the Board terminated his privileges, the Board should
be deemed a state actor”); Hall v. Quillen. 631 F.2d 1154, 1154-1156 (4th Cir.1980) (affirming
dismissal of action against state-appointed counsel who represented plaintiff in an involuntary
commitment proceeding).
Plaintiff s complaint fails to allege facts giving rise to a plausible inference that defendant
is a state actor. Here, plaintiff alleges only that defendant “was legally appointed Guardian of the
—e °f [Dukes] who was declared incompetent by court order.” (Compl. (DE 1) at 3) (emphasis
added). He alleges that defendant had “entered negotiations with private interest” regarding
disposition of Dukes’s property, and that he obtained permission from the court to sell such
property. (Id. at 4). These allegations with respect to appointment for purposes of disposition of
property of the estate of Dukes do not give rise to an inference of state action, especially where
plaintiff is not bringing an action based upon conduct with respect to the person of Dukes. Cf.
Thomas S. v. Morrow, 781 F.2d 367, 377-78 (4th Cir. 1986) (finding state action by guardian of
incompetent person who “[w]orking with the state hospital and with officials from local agencies,
... had [plaintiffj admitted to Broughton Hospital and to succeeding placements”).

9
Case 7;19-cv-00181-FL Document 40 Filed 04/07/20 Page 9 of 10

Moreover, plaintiff has not alleged sufficiently that defendant should be treated as a State
actor on the basis of action in concert with or in conspiracy with the state court or county officials.
A private party may be considered a state actor by “conspiring with” a party acting under color of
state law- Dennis v. Sparks. 449 U.S. 24, 28 (1980). It is a “weighty burden to establish a civil,
rights conspiracy.” Hinkle v. City of Clarksburg. W.Va.. 81 F.3d 416, 421 (4th Cir. 1996). A
plaintiff must allege facts permitting a reasonable inference that “each member of the alleged
conspiracy shared the same conspiratorial objective,” in that they “positively or tacitly came to a
mutual understanding to try to accomplish a common and unlawful plan.” Id. Here, plaintiff has
not alleged facts permitting an inference of a conspiracy between defendant and government
officials.
In sum, plaintiff fails to state a claim for a federal constitutional claim under § 1983, where
defendant is not a state actor. Therefore, defendant’s motion to dismiss must be granted on this
additional ground. Where res judicata bars plaintiffs claims and it is unlikely that amendment can
cure the deficiencies in plaintiffs complaint, dismissal in this instance is with prejudice.
CONCLUSION
Based on the foregoing, defendant’s motion to dismiss is GRANTED. Plaintiffs action is
DISMISSED WITH PREJUDICE for failure to state a claim upon which relief can be granted.
The clerk is DIRECTED to close this case.
SO ORDERED, this the 7th day ofApril, 2020.
I certify the foregoing to be a true and correct

copy of the original

Peter A. Moore, Jr., Clerk

United States District
Eastern District ofNoflfrp&oti*

\JK)JblSE W. FLANAOtofc
United States District Judge

^

By:

10

Case7:19-cv-00181-FL Documents Filed04/07/20 Page 10of 10

f

I

APPENDIX 3.

Supreme Court ot jBtortf) Carolina
Fax: (919) 831-5720
Web: https://www.nccourts.gov

AMY L. FUNDERBURK, Clerk
Justice Building, 2 E. Morgan Street
Raleigh, NC 27601
(919) 831-5700

Mailing Address:
P. O Box 2170
Raleigh, NC 27602

From New Hanover
( 18CVS003803 18CVS3803 )
22 August 2019

Mr. Tony C. Thomas
Pro Se
820 South 10th Street
Wilmington, NC 28401
RE: Estate of Thalia Dukes v Craige - 256P19-1
Dear Mr. Thomas:
The following order has been entered on the motion filed on the 26th of June 2019 by Plaintiff for
North Carolina Supreme Court to Assume Jurisdiction:
"Motion Dismissed by order of the Court in conference, this the 14th of August 2019."
s/ Davis, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 22nd day of
August 2019.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. HackneyU-'
Assistant C\em, Supreme Court Of North Carolina
Copy to:
Mr. Tony C. Thomas, For Thomas, Tony C.
Mr. H. Kenneth Stephens, II, Attorney at Law, For Craige, Lawrence S. - (By Email)
West Publishing - (By Email)
Lexis-Nexis - (By Email)

%

J

APPENDIX 4.

I

STATE OF NORTH CAROLINA

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
BEFORE THE CLERK
FILE NO.: 14 E 579
15 SP

COUNTY OF NEW HANOVER

IN THE MATTER OF:
THALIA DUKES
Incompetent.

)
)
)
)
)
)
)
)

WAIVER OF NOTICE AND
CONSENT TO SALE OF
REAL PROPERTY BY PRIVATE SALE

I, Tony Thomas, by my signature below, after a review of the Petition to Sell
Incompetent’s Real Property at Private Sale (attached as Exhibit A), consent to the entry of an
order authorizing the sale of Thalia Dukes’ real property commonly known as 6760 Gordon
Road, Wilmington, NC 28411; 6770 Gordon Road, Wilmington, NC 28411; and 6756 Gordon
Road, Wilmington, NC 28411, and more particularly described in that North Carolina General
Warranty Deed by and between Albert Samuel, Jr., as Grantor, and Thalia Dukes, as Grantee,
dated February 13, 2015 and recorded February 16, 2015 in Book 5868 at Page 1337 of the New
Hanover County Registry and do hereby waive notice of a hearing regarding same.
This, the 12th day of March, 2015.
Tony Thomas
STATE OF NORTH CAROLINA
COUNTY OF NEW HANOVER
., a Notary Public for New Hanover County, North
I,
Carolina, do hereby certify that Tony Thomas, personally appeared before me this day and
acknowledged the due execution of the foregoing instrument for the purposes therein expressed.
WITNESS my hand and official seal this, the 12th day of March, 2015.

Notary Public
My Commission Expires:.

>

'» *

APPENDIX 5.

» *

E GENERAL COURT OF JUSTICE

STATE OF NORTH CAROLINA
COUNTY OF NEW HANOVER

COURT DIVISION
fills SUPERIOR
18 CVS 3803

IN THE MATTER OF THE ESTA^O^8 )
THALIA DUKES, BY HER SON 0>|
MR. TONY C. THOMAS,
H
Plaintiff,
VI...
v.

LAWRENCE S. CRAIGE,
Defendant.

p Lf 00

W

„c.$.c.

)

X
)
)
)
)
)

NOTICE OF HEARING

PLEASE TAKE NOTICE that the undersigned will bring on for hearing the
Defendant’s, Lawrence S, Craige, Motions for Summary Judgment pursuant to Rule 56,
Dismissal pursuant to Rule 12b(6), and Dismissal pursuant to Rule 12b(l), heretofore
filed in this Court, before the Civil Session of the New Hanover County Superior Court at
the New Hanover County Courthouse, in New Hanover County, Wilmington, North
Carolina, on the 6th day of May, 2019, at 10:00 a.m., or as soon thereafter as the Court
can hear it.
This

//^day of April, 2019.

v>*

ETH STEP
N. C. State Bar #11101
Attorney for Defendant,
Lawrence S. Craige
701 Princess Street
Post Office Box 2237
Wilmington, NC 28402
(910)343-1022
(910) 763-0783 facsimile

* *

APPENDIX 6.

r.*

1 > *' .
u~

Office of the Clerk
Court of Appeals ofNorth Carolina
P.O.Box 2779
Raleigh, N.C. 27602

i

Telephone
(919)831-3600

Daniel M. Horne, Jr.
Clerk
16 May 2019
Tony C. Thomas
820 South 10th Street

Wilmington, NC 28401
l
i
i- •

Dear Mr. Thomas:
The North Carolina Court of Appeals received three copies of your “Notice of Appeal” today,
and this Court forwarded it to me for response. Under the N.C. Rules of Appellate
Procedure, a notice of appeal is to be filed with the clerk of superior court in the county in
which the matter was heard. Your documents appear to he file-stamped hy the Nevr
Hanover County Clerks Office. There is no requirement under Rule 3 of the NC Rules ot
will be treating as courtesy copies, and no action
documents.
Ffflng a notice of appeal with (to local olerk of superior coort to the feat of
"***
bnJred in «pealh« to this Cooit, and the bnrien of connOetmg those steps to on lie party
who is appealing (or their counsel).
•

‘

_

•’

_

-

Sincerely,
*

jr

Daniel M. Home, Jr.
Clerk, NC Court of Appeals

■»«£
*♦ AX.

